                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 TH S TREET , R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
March 7, 2012

Report Number: A-07-11-00363

Ms. Suzanne M. Gannon
Executive Director and Chief Financial Officer
MedUS Services, LLC
HealthNow New York, Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Contractor’s Pension Segmentation
Requirements for the Medicare Part B Segment at HealthNow New York, Inc., for the Period
April 1, 1995, to January 1, 2007. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00363
in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Suzanne M. Gannon


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





REVIEW OF MEDICARE CONTRACTOR’S 

     PENSION SEGMENTATION 

 REQUIREMENTS FOR THE MEDICARE 

       PART B SEGMENT AT 

   HEALTHNOW NEW YORK, INC.,

  FOR THE PERIOD APRIL 1, 1995,

       TO JANUARY 1, 2007 





                        Daniel R. Levinson

                         Inspector General 


                           March 2012 

                          A-07-11-00363 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

During our audit period (April 1, 1995, to January 1, 2007), HealthNow New York, Inc.
(HealthNow), administered Medicare Part B and Durable Medical Equipment Regional Carrier
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS).

HealthNow sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Accordingly, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether HealthNow complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   	 identifying the Medicare segment’s initial asset base and

   	 updating the Medicare segment’s pension assets from the initial asset base to 

      January 1, 2007. 


SUMMARY OF FINDINGS

HealthNow complied with the Medicare contracts’ pension segmentation requirements in
identifying the Medicare segment’s initial asset base. However, HealthNow did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating the Medicare segment assets from the initial asset base to
January 1, 2007. HealthNow identified Medicare segment pension assets of $11,251,174;
however, we determined that the Medicare segment pension assets were $12,054,951 as of
January 1, 2007. Thus, HealthNow understated the Medicare segment pension assets by
$803,777 as of January 1, 2007. The understatement occurred primarily because HealthNow’s


                                                 i
calculations did not always consider actual benefit payments to Medicare segment participants as
required by the CAS.

RECOMMENDATION

We recommend that HealthNow increase the Medicare segment pension assets as of
January 1, 2007, by $803,777 and recognize $12,054,951 as the Medicare segment’s pension
assets.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our findings and acknowledged
that there will be a global settlement of HealthNow’s outstanding audits. HealthNow’s
comments are included in their entirety as Appendix B.




                                               ii
                                                    TABLE OF CONTENTS 




INTRODUCTION............... .............................. .......................... ......... .................. .. ..... .. .... ...... 1 


           BACKGROUND ..... ........................................................... .................................... ........ 1 

               HealthNow New York Inc. and Medicare .......................... ............ .................... 1 

               Federal Requirements ............................. .... ................... ........ ........ .. ................... 1 

               Pension Segmentation ... ................................. ... .... ...... ....... .. ..... ..... ... ......... ..... .. .. 1 


           OBJECTIVE, SCOPE, AND METHODOLOGY ........................... ............................... 2 

                Objective .................................................................. ... .. ...................................... 2 

                Scope ............. ...................................................................................................... 2 

                Methodology ................. .......................... .... ................................... ..... ..... ........... 2 


FINDINGS AND RECOMMENDATION............... .. ............... ................... ......... .. ................ 3 


           MEDICARE PART B SEGMENT ASSET BASE (INITIAL ALLOCATION) .......... .4 


           UPDATE OF MEDICARE PART B SEGMENT PENSION ASSETS ........ ................ .4 

               Federal Requirements ...... ....... .............. ..................... ......................................... 4 

               Contributions and Transferred Prepayment Credits Overstated ......................... 5 

               Benefit Payments Overstated ............... ... .. .. ............................... .. ....................... 5 

                Other Transactions Understated .......................... ...................... ...... ................... . 5 

                Earnings, Net Expenses Understated ............................................. ..................... 6 


           RECOMMENDATION ........... ...................... ...... ............. ................ ........ ...................... 6 


           AUDITEE COMMENTS ... .. .............. ........... ....... .. ............. .... ...... ........ ......... ......... ........ 6 


APPENDIXES

     A: 	 STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR
          THE MEDICARE PART B SEGMENT AT HEALTHNOW NEW YORK, INC.,
          FOR THE PERIOD APRIL 1, 1995, TO JANUARY 1, 2007

     B: 	 AUDITEE COMMENTS




                                                                       III
               Glossary of Abbreviations and Acronyms

CAS         Cost Accounting Standards
CMS         Centers for Medicare & Medicaid Services
DMREC       Durable Medical Equipment Regional Carrier
FAR         Federal Acquisition Regulation
HealthNow   HealthNow New York, Inc.
WAV         weighted average value




                                   iv
                                              INTRODUCTION 


BACKGROUND

HealthNow New York, Inc.
                    Inc.,, and Medicare

During our audit period (April 1, 1995
                                  1995,, to January 1,2007), HealthNow New York
                                                                           York,, Inc.
(HealthNow), administered Medicare Part B and Durable Medical Equipment Regional Carrier
(DMERC) operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).!

HealthNow sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee's retirement
benefit as defined by the plan's terms.

Since its inception, Medicare has paid a portion of contractors' contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR)
                                (FAR),, Cost Accounting Standards (CAS)
                                                                     (CAS),, and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods
                                                                    periods..

CAS 413 addresses the valuation of pension assets
                                              assets,, allocation of pension costs to segments of an
organization,, adjustment of pension costs for actuarial gains and losses, and assignment of gains
organization
and losses to cost accounting periods.

Penssion Segmentation
Pen

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
thee identification and initial allocation of pension assets to the segment. Additionally
th                                                                           Additionally,, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CA CASS 412 and 413 . In claiming costs
                                                       costs,, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.




1 The DMERC contractual relationship was terminated on June 30, 2006. The effective closing date for the

DMERC Medicare segment was January 1,2007. We are reviewing this segment closing in a separate audit
(A-07-11-00366) of Health
                     HealthNow.
                             Now. UnUnlless otherwise noted
                                                      noted,, all subsequent references to Medicare segment pension
assets in the body of this report relate to the Medicare Part B segment pension assets
                                                                                   assets..
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether HealthNow complied with Federal requirements and the
Medicare contracts' pension segmentation requirements when:

   • 	 identifying the Medicare segment's initial asset base and

    • 	 updating the Medicare segment's pension assets from the initial asset base to 

        January 1,2007. 


Scope

We reviewed HealthNow's identification of its Medicare segment, computation of the initial
assets allocated to the Medicare segment, and update of Medicare segment assets from
April 1, 1995, to January 1,2007.

Achieving our objective did not require us to review HealthNow's overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment and the
update of the segment's assets.

We performed fieldwork at HealthNow's office in Buffalo, New York.

Methodology

To accomplish our objective, we did the following:

    • 	 We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this
        audit.

    I»     We reviewed HealthNow's development of the Medicare segment initial assets as of
           April 1, 1995.

    • 	 We reviewed the information provided by HealthNow's actuarial consulting firm. Prior
        to our review, HealthNow engaged its actuarial conSUlting firm to analyze and develop its
        Medicare segment pension asset accounting. This information included the pension
        plan's assets, liabilities, normal costs, contributions, benefit payments, investment
        earnings, and administrative expenses. We used this information in our review of
        Medicare segment assets.

    CD 	   We obtained and reviewed the pension plan documents and Form 5500 Series disclosure
           documents used in calculating the Medicare segment assets?


2 Employee benefit plans are required to file these forms with the U.S. Department of Labor and the Internal 

Revenue Service. 


                                                          2
   	 We interviewed HealthNow staff responsible for identifying the Medicare segment to
      determine whether the segment was properly identified in accordance with the Medicare
      contracts.

   	 We reviewed HealthNow’s accounting records to verify the segment identification and
      benefit payments made to the Medicare segment participants.

   	 We provided the CMS Office of the Actuary with the actuarial information necessary for
      it to calculate the Medicare segment pension assets from April 1, 1995, to
      January 1, 2007.

   	 We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our review of pension costs claimed for Medicare
reimbursement by HealthNow for fiscal years 1995 through 2006 (A-07-11-00364) and our
review of HealthNow’s unfunded pension costs for 1995 through 2006 (A-07-11-00365).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

HealthNow complied with the Medicare contracts’ pension segmentation requirements in
identifying the Medicare segment’s initial asset base. However, HealthNow did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating the Medicare segment assets from the initial asset base to
January 1, 2007. HealthNow identified Medicare segment pension assets of $11,251,174;
however, we determined that the Medicare segment pension assets were $12,054,951 as of
January 1, 2007. Thus, HealthNow understated the Medicare segment pension assets by
$803,777 as of January 1, 2007. The understatement occurred primarily because HealthNow’s
calculations did not always consider actual benefit payments to Medicare segment participants as
required by the CAS.

Appendix A presents details on the Medicare segment’s pension assets from April 1, 1995, to
January 1, 2007, as determined during our audit. Table 1 on the next page summarizes the audit
adjustment required to update Medicare segment pension assets in accordance with Federal
requirements.




                                               3

                        Table 1: Summary of Audit Adjustments
                                             Per Audit Per HealthNow Difference
  Update of Medicare Part B Segment Assets
    Contributions and Prepayment Credits     $6,011,426      $6,258,714 ($247,288)
    Benefit Payments                        (3,696,585)     (4,540,523)    843,938
    Other Transactions                            2,387           2,074        313
    Earnings, Net Expenses                    6,311,973       6,105,159    206,814
  Under/(Over)statement of Medicare Part B Pension Segment Assets         $803,777

MEDICARE PART B SEGMENT ASSET BASE (INITIAL ALLOCATION)

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the contract’s salary criterion
identifying a Medicare segment was met.

HealthNow computed an initial asset base of $4,024,940 as of April 1, 1995, for the Medicare
segment. We accepted HealthNow’s computation of its Medicare segment initial asset base.

UPDATE OF MEDICARE PART B SEGMENT PENSION ASSETS

HealthNow did not always comply with Federal requirements and the Medicare contracts’ 

pension segmentation requirements when updating Medicare segment assets to 

January 1, 2007. 


Federal Requirements

The Medicare contracts state that “… the pension assets allocated to each Medicare segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.




                                                 4

Contributions and Transferred Prepayment Credits Overstated

HealthNow overstated contributions and transferred prepayment credits by $247,288 for the
Medicare segment. This overstatement occurred because HealthNow did not correctly calculate
the assignable pension cost upon which the contributions and transferred prepayment credits
were based. As a result, HealthNow overstated the Medicare segment pension assets by
$247,288.

Benefit Payments Overstated

HealthNow overstated benefit payments for the Medicare segment by $843,938 because
HealthNow’s calculation did not always report actual benefit payments to Medicare segment
participants as required by the CAS. Specifically, starting in 2005 HealthNow used estimated
benefit payment amounts to allocate benefit payments to the Medicare segment. CAS
413.50(c)(7) requires that the asset base be adjusted by benefit payments “… attributable to the
segment and paid from the pension plan.” We based the Medicare segment’s benefit payments
on actual benefit payments to Medicare segment participants as required by the CAS. This
overstatement of benefit payments resulted in an understatement of Medicare segment pension
assets by $843,938.

A comparison of HealthNow’s and our calculations of benefit payments from the Medicare
segment appears in Table 2.

               Table 2: Benefit Payments from the Medicare Part B Segment
                          Per Audit        Per HealthNow      Difference
                1995          ($19,072)            ($19,072)             $0
                1996            (50,370)            (50,370)              0
                1997            (41,390)            (41,390)              0
                1998            (65,287)            (65,287)              0
                1999          (177,179)            (177,276)             97
                2000          (201,109)            (200,315)          (794)
                2001          (217,515)            (218,127)            612
                2002          (280,353)            (280,083)          (270)
                2003          (605,485)            (612,260)          6,775
                2004          (279,811)            (336,737)        56,926
                2005          (423,836)            (415,004)        (8,832)
                2006        (1,335,178)          (2,124,602)       789,424
                Total      ($3,696,585)         ($4,540,523)      $843,938

Other Transactions Understated

HealthNow understated other transactions by $313 for the Medicare segment because it used a
different allocation basis (due to the use of incorrect contributions and transferred prepayment
credits, and incorrect benefit payment amounts, as previously discussed) to allocate the other
transactions to the Medicare segment. In our audited update, we allocated other transactions


                                                5
based on the ratio of the Medicare segment assets to the Total Company assets after transferred
prepayment credits.

Earnings, Net Expenses Understated

HealthNow understated investment earnings, less administrative expenses, by $206,814 for the
Medicare segment because it used incorrect contributions and transferred prepayment credits,
benefit payments, and other transactions amounts (all previously discussed) to develop the
Medicare segment pension asset base. In our audited update, we allocated earnings, net expenses
based on the applicable CAS requirements.

RECOMMENDATION

We recommend that HealthNow increase the Medicare segment pension assets as of
January 1, 2007, by $803,777 and recognize $12,054,951 as the Medicare segment’s pension
assets.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our findings and acknowledged
that there will be a global settlement of HealthNow’s outstanding audits.

HealthNow’s comments are included in their entirety as Appendix B.




                                                6

APPENDIXES 

                                                                                               Page 1 of 3

                  APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR


                   THE MEDICARE PART B SEGMENT AT HEALTHNOW NEW YORK, INC.,


                          FOR THE PERIOD APRIL 1, 1995, TO JANUARY 1, 2007



                                                                                              DMERC
                                                                           Part B Medicare    Medicare
           Description                Total Company     “Other” Segment        Segment        Segment
                                                                                                 1/
Assets April 1, 1995             2/       $43,523,569        $39,498,629        $4,024,940               $0

Transferred Prepayment Credits                     0                  0                 0                 0
Contributions                    3/        4,572,907          3,979,268           593,639                 0
Earnings, Net Expenses           4/        2,312,972          2,093,686           219,286                 0
Benefit Payments                 5/       (1,788,809)        (1,769,737)          (19,072)                0
Transfers                                          0                  0                 0                 0

Assets April 1, 1996                      48,620,639         43,801,846          4,818,793                0

Transferred Prepayment Credits   6/                0            (84,182)           84,182                 0
Contributions                              3,949,827          3,322,332           627,495                 0
Earnings, Net Expenses                     2,481,526          2,227,641           253,885                 0
Benefit Payments                          (1,888,300)        (1,837,930)          (50,370)                0
Transfers                                          0                  0                 0                 0

Assets April 1, 1997                      53,163,692         47,429,707          5,733,985                0

Transferred Prepayment Credits                     0                  0                 0                 0
Contributions                              3,652,171          3,117,638           534,533                 0
Earnings, Net Expenses                     2,144,799          1,910,893           233,906                 0
Benefit Payments                          (1,551,657)        (1,510,267)          (41,390)                0
Transfers                                          0                  0                 0                 0

Assets January 1, 1998                    57,409,005         50,947,971          6,461,034                0

Transferred Prepayment Credits                     0            (28,795)            28,795                0
Contributions                              3,389,930          3,037,771            352,159                0
Annuity Purchase                 7/      (20,883,912)       (20,326,840)          (557,072)               0
Earnings, Net Expenses                     2,414,480          2,066,791            347,689                0
Benefit Payments                          (2,447,515)        (2,382,228)           (65,287)               0
Transfers                        8/                0              5,289             (5,289)               0

Assets January 1, 1999                    39,881,988         33,319,959          6,562,029                0

Transferred Prepayment Credits                     0            (64,252)            64,252                0
Contributions                              5,313,049          4,914,739            398,310                0
Earnings, Net Expenses                     7,508,475          6,259,046          1,249,429                0
Benefit Payments                          (2,306,407)        (2,129,228)          (177,179)               0
Transfers                                          0                  0                  0                0

Assets January 1, 2000                     50,397,105         42,300,264         8,096,841                0

Transferred Prepayment Credits                     0           (174,334)           174,334                0
Contributions                              9,142,603          8,843,116            299,487                0
Earnings, Net Expenses                    (1,077,408)          (903,560)          (173,848)               0
Benefit Payments                          (2,244,609)        (2,043,500)          (201,109)               0
Transfers                                          0             33,497            (33,497)               0

Assets January 1, 2001                    $56,217,691        $48,055,483        $8,162,208               $0
                                                                                                Page 2 of 3

                                                                                               DMERC
                                                                            Part B Medicare    Medicare
           Description                 Total Company     “Other” Segment        Segment        Segment

Assets January 1, 2001                     $56,217,691        $48,055,483        $8,162,208               $0

Transferred Prepayment Credits                      0           (318,218)           318,218              0
Contributions                               8,719,704          8,719,704                  0              0
Other Transactions                9/           15,824             13,437              2,387              0
Earnings, Net Expenses                     (2,471,296)        (2,104,161)          (367,135)             0
Benefit Payments                           (2,425,152)        (2,207,637)          (217,515)             0
Transfers                                           0                  0             (2,648)         2,648

Assets January 1, 2002                     60,056,771         52,158,608          7,895,515          2,648

Transferred Prepayment Credits                      0           (732,344)           489,141        243,203
Contributions                               7,930,000          7,930,000                  0              0
Earnings, Net Expenses                     (6,179,908)        (5,286,432)          (867,604)       (25,872)
Benefit Payments                           (2,663,303)        (2,382,950)          (280,353)             0
Transfers                                           0                541               (541)             0

Assets January 1, 2003                     59,143,560         51,687,423          7,236,158        219,979

Transferred Prepayment Credits                      0           (675,188)           458,820        216,368
Contributions                               6,850,000          6,850,000                  0              0
Earnings, Net Expenses                     14,513,020         12,544,601          1,858,704        109,715
Benefit Payments                           (2,847,892)        (2,242,407)          (605,485)             0
Transfers                                           0                  0                  0              0

Assets January 1, 2004                     77,658,688         68,164,429          8,948,197        546,062

Transferred Prepayment Credits                      0           (814,039)           596,090        217,949
Contributions                               6,750,000          6,750,000                  0              0
Earnings, Net Expenses                      8,787,207          7,616,997          1,082,285         87,925
Benefit Payments                           (2,606,684)        (2,326,873)          (279,811)             0
Transfers                                           0                  0                  0              0

Assets January 1, 2005                     90,589,211         79,390,514         10,346,761        851,936

Transferred Prepayment Credits                      0           (727,833)           520,848        206,985
Contributions                               6,600,000          6,600,000                  0              0
Earnings, Net Expenses                      7,383,951          6,410,744            885,236         87,971
Benefit Payments                           (3,415,381)        (2,991,545)          (423,836)             0
Transfers                                           0            (17,556)              (143)        17,699

Assets January 1, 2006                    101,157,781         88,664,324         11,328,866      1,164,591

Transferred Prepayment Credits                      0           (579,773)           471,123        108,650
Contributions                                       0                  0                  0              0
Earnings, Net Expenses                     13,099,673         11,395,306          1,590,140        114,227
Benefit Payments                          (18,896,767)       (16,614,494)        (1,335,178)      (947,095)
Transfers                                           0             17,699                  0        (17,699)

Assets January 1, 2007                    $95,360,687        $82,883,062        $12,054,951       $422,674
Per HealthNow                    10/      $95,360,687        $84,184,414        $11,251,174       ($74,901)
Asset Variance                   11/               $0        ($1,301,352)          $803,777       $497,575
                                                                                                                              Page 3 of 3

ENDNOTES

 1/ We are reviewing Durable Medical Equipment Regional Carrier (DMERC) Medicare segment assets in a separate audit 

    (A-07-11-00366) of HealthNow. 


 2/ We agreed with HealthNow’s determination of the Medicare Part B segment’s initial assets. The amounts shown for the “Other”
    segment represent the difference between the Total Company, the Medicare Part B segment, and the DMERC Medicare segment. All
    pension assets are shown at market value.

 3/ We obtained Total Company contribution amounts from the Department of Labor/Internal Revenue Service Forms 5500. We
    allocated Total Company contributions to the Medicare segment(s) based on the ratio of the Medicare segment(s) funding target
    divided by the Total Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and
    accounted for in the “Other” segment until needed to fund pension costs in the future.

 4/ We obtained net investment earnings from documents prepared by HealthNow’s actuarial consulting firm. For years starting with
    1996, we allocated net investment earnings based on the ratio of the segment’s weighted average value (WAV) of assets to total
    company WAV of assets as required by the Cost Accounting Standards (CAS). For 1995, we followed the WAV approach used by
    HealthNow.

 5/ We based the Medicare Part B segment’s benefit payments on actual payments to Medicare Part B segment participants. We obtained
    the benefit payments from documents provided by HealthNow.

 6/ Prepayment credits represent funds available to satisfy future funding requirements, and are applied to future funding requirements 

    before current year contributions in order to reduce interest costs to the Federal Government. Prepayment credits are transferred to 

    the Medicare segment(s) as needed to cover funding requirements.


 7/ We agreed with the annuity purchase amounts obtained from documents prepared by HealthNow’s actuarial consulting firm.

 8/ We identified participant transfers between segments by comparing valuation data files provided by HealthNow. Asset transfers 

    were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS. 


 9/ This other transaction represents a fund transfer associated with the New England Fund. We allocated this transaction to the 

    Medicare Part B segment based on the ratio of the Medicare Part B segment assets to the Total Company assets after the transfer of 

    prepayment credits. 


10/ We obtained total asset amounts as of January 1, 2007, from documents prepared by HealthNow’s actuarial consulting firm.

11/ The asset variance represents the difference between our calculation of Medicare segment(s) pension assets and HealthNow’s 

    calculation of the Medicare segment(s) pension assets. 

                                     APPENDIX B: AUDITEE COMMENTS 



HeafttlNoAts'
Heaft tlNoAts'
257 West Gcne<ef! Street - Buffalo
                           Buffalo.. New Yoric 14202-2657




                                                                                           January 30, 2012

        Mr. Patrick J. Cogley
        Regional Inspector General, Office o f Audit Services 

        Region VII 

        601 East 12th Street 

        Room 0429 

        Kansas City, Missouri 64106 


        Re: 	 Report Number
                     Number:: A-07-11-OO363

        Dear Mr. Cogley:

       Th is letter is in response to the U.S
       This                               U.S.. Department of Health & Human Services, Office of Inspector
       General, Office of Audit Services' draft report entitled "REVIEW OF MEDICARE CONTRACTOR'S
       PENSION SEGMENTATION REQUIREMENTS FOR THE MEDICARE PART B SEGMENT AT HEAlTHNOW
       NEW YORK INC FOR THE PERIOD APRil 1, 1995, TO JANUARY 1, 2007." HealthNow New York Inc.
       (HealthNow) has reviewed the draft report In conjunction with our actuaries at Hooker and
       Holcombe, Inc. Followin
                         Following
                                 g are comments regarding the specific findings.

             • 	 Increase the Medicare Part B segment's pension assets as of January 1, 2007 by SB03,m
                                                                                                  SB03,m..
                 This br
                      briing
                          ngss the Medicare Part B segment's pension asset value to $12,054,95
                                                                                    $12,054,9511.

       We agree with this finding and under
                                      unders
                                           stand there will be a global settlement of all Hea/thNows
       outstanding aUdits.

       HealthNow would like to thank the audit team for their profeSSionalism and recogn
                                                                                  recognit
                                                                                         ition
                                                                                           ion of the
       ongoing operation during the audit. I am also grateful to Jenenne Tambke for the extension to
       respond to this draft report.

       If you have any questions please contact me at 716
                                                      716..887.6922.


                                       I~
 j Exe~~;ive    Y
          . erel ,
             {] -y
            ne M. Gannon
                         u
                Director & CFO,
                                (
                                    jiA          Q      J.   ~ "'>1
                                                  edicare Operation
       ~ts    Services, llC
       HealthNow New YorYork
                           k Inc.

      CC: 	 Carmen L Snell, Esq. 

            Christopher Leardini 

           Catherine M. Campbell 

